                TABLE OF CONTENTS


INSPECTOR GENERAL’S MESSAGE                  i
NCUA AND OFFICE OF INSPECTOR GENERAL
                                             1
  MISSION STATEMENTS
INTRODUCTION                                 2
NCUA ORGANIZATIONAL CHART                    5
NCUA HIGHLIGHTS                              6
FEDERALLY INSURED CREDIT UNIONS HIGHLIGHTS   8
LEGISLATIVE HIGHLIGHTS                       10
OFFICE OF THE INSPECTOR GENERAL              12
   AUDIT ACTIVITY                            14
   INVESTIGATIVE ACTIVITY                    19
   LEGISLATIVE AND REGULATORY REVIEWS        23
TABLE I – REPORTS WITH QUESTIONED COSTS      25
TABLE II – REPORTS WITH RECOMMENDATIONS
                                             26
  THAT FUNDS BE PUT TO BETTER USE
TABLE III – SUMMARY OF OIG ACTIVITY          27
INDEX OF REPORTING REQUIREMENTS              28




                            ii
        INSPECTOR GENERAL'S MESSAGE
             TO THE NCUA BOARD
             AND THE CONGRESS


It is my pleasure to submit this Semiannual Report on the
accomplishments      of   the    National   Credit   Union
Administration (NCUA) Office of the Inspector General
(OIG) for the six-month period ending on March 31, 2006.
This period has been a very active one for both the agency
and our office. Significantly, the agency saw the Senate
confirmation of two new members to the NCUA Board, Vice
Chairman Rodney E. Hood and Board member Gigi Hyland.
We welcome both new Board members and look forward to
forging with them the same positive relationship we
currently share with Chairman JoAnn Johnson.

Inspired by changes at the NCUA Board level, we have for
the first time since our office’s inception changed the
format of our Semiannual Report.        Drawing on the
exceptional talents on our own staff, we conceived and
designed the new visual format you see here and produced
what we hope you will agree is a more professional and
polished Semiannual Report.



                          i
Further changes in our office include the selection of a new
outside independent contractor, Grant Thornton, to conduct
NCUA’s annual information security evaluations required by
the Federal Information Security Management Act (FISMA).
As a result of this selection, we anticipate a more
streamlined and productive dialogue with agency managers
to achieve optimal information security reporting.

Within the OIG we are continuing to improve ourselves and
our work environment. The OIG is committed to delivering
high quality professional audit and investigative services to
help management improve NCUA programs and operations.
To that end, we will provide timely, accurate and fact-
based audits, inspections, evaluations, and investigations to
help NCUA carry out its mission.




                            William A. DeSarno
                            Inspector General




                           ii
 OIG Semiannual Report                 March 2006




               THE NCUA MISSION
NCUA’s mission is to foster the safety and soundness of
federally insured credit unions and better enable the credit
union community to extend financial services for provident
and productive purposes to all who seek such service while
recognizing and encouraging credit unions’ historical
emphasis on extension of financial services to those of
modest means.




 THE OFFICE OF INSPECTOR GENERAL MISSION

The OIG promotes the economy, efficiency, and effectiveness
of NCUA programs and operations, and detects and deters
fraud, waste, and abuse, thereby supporting the NCUA’s
mission of monitoring and promoting safe and sound
federally insured credit unions.

We accomplish our mission by conducting independent
audits, investigations, and other activities, and by keeping
the NCUA Board and the Congress fully and currently
informed of our work.




                            1
  OIG Semiannual Report                 March 2006




                   INTRODUCTION

The National Credit Union Administration (NCUA) was
established as an independent, federal regulatory agency on
March 10, 1970. The agency is responsible for chartering,
examining, supervising, and insuring federal credit unions. It
also insures state-chartered credit unions that have applied
for insurance and have met National Credit Union Share
Insurance requirements. The NCUA is funded by the credit
unions it supervises and insures. As of December 31, 2005,
the NCUA was supervising and insuring 5,393 federal credit
unions and insuring 3,302 state-chartered credit unions, a
total of 8,695 institutions. This represents a loss of 179
federal and 140 state-chartered institutions since December
31, 2004, for a total loss of 319 credit unions nationwide.

The NCUA operates under the direction of a Board composed
of three members. Board members are appointed by the
President and confirmed by the Senate. They serve six-year
terms. Terms are staggered, so that one term expires every
two years. The Board is responsible for the management of
the NCUA, including the NCUA Operating Fund, the Share
Insurance Fund, the Central Liquidity Facility, and the
Community Development Revolving Loan Fund.

The NCUA executes its program through its central office in
Alexandria, Virginia and regional offices in Albany, New York;
Alexandria, Virginia; Atlanta, Georgia; Austin, Texas; and
Tempe, Arizona.       The NCUA also operates the Asset
Management and Assistance Center (AMAC) in Austin, Texas.
Please refer to the NCUA organizational chart on page 5.




                             2
   OIG Semiannual Report                 March 2006




 The NCUA Board adopted its 2006 budget of $150,788,525 on
 November 29, 2005. The Full-Time Equivalent (FTE) staffing
 authorization for 2006 is 958, a reduction of 3 positions from
 the 2005 total of 961.




          Federally Insured Credit Unions


12000
10000
8000 3980 3866 3735 3593
                         3442 3302
6000
4000
        6336 6118 5953 5776 5572
                                 5393
2000
    0                                                  FISCUs
        2000 2001 2002 2003 2004 2005                  FCUs




                              3
 OIG Semiannual Report                               March 2006




                             NCUA Budget Dollars
  Millions
       152
       150
       148
       146
       144
       142
       140
       138
       136
       134
               2001      2002       2003      2004   2005   2006




                             NCUA Authorized Staff

1200

1000

800

600

400

200

  0
        2001          2002        2003       2004    2005    2006




                                         4
OIG Semiannual Report   March 2006




   NCUA ORGANIZATIONAL CHART




                    5
   OIG Semiannual Report                  March 2006


                  NCUA HIGHLIGHTS
NCUA PROPOSES FIELDS OF MEMBERSHIP AMENDMENTS

At its January 19, 2006 meeting, the NCUA Board issued a
proposed rule change that would limit underserved area
expansions to multiple common bond credit unions as well as
revise underserved area service facility requirements. The
NCUA had previously issued a moratorium suspending the
addition of new underserved areas in single common bond and
community federal credit unions in December 2005. The
moratorium was in response to an American Bankers
Association lawsuit challenging NCUA’s approval of America
First Federal Credit Union’s addition of underserved areas. The
NCUA Board also recommended that the rule include a
provision insuring a physical presence be established in an
added underserved area to ensure an active credit union role
and better serve local residents. The agency is currently
reviewing comments received on the proposed rule.

NCUA BEGINS COLLECTING DATA ON MEASURING SERVICE
TO FEDERAL CREDIT UNION MEMBERS

In a letter to federal credit unions issued in February 2006,
NCUA began the process of collecting two types of data: (1)
information to profile credit union membership; and (2)
information on credit unions’ senior management compensation
and benefits. NCUA initiated the data collection effort in
response to specific congressional requests to measure service
provided by credit unions. The data collection will also respond
to questions raised by the Government Accountability Office
(GAO) in its October 2003 report on credit unions and raised
again during its most recent follow-up audit.



                               6
   OIG Semiannual Report                  March 2006


HOOD, HYLAND SWORN IN AS NCUA BOARD MEMBERS

On November 15 and 18, 2005 respectively, Rodney E. Hood
and Christiane Gigi Hyland were sworn in as new NCUA Board
Members. The United States Senate had confirmed both Hood
and Hyland as Members of the NCUA board on November 7.
Vice Chairman Hood’s experience spans 17 years in the public
and private sector.     Most recently, Mr. Hood served as
associate administrator of the Rural Housing Service at the U.
S. Department of Agriculture. Board Member Hyland has 14
years of experience within the credit union system. Most
recently, she served as Senior Vice President and General
Counsel to Empire Corporate Federal Credit Union in Albany,
New York.

CHAIRMAN JOHNSON TESTIFIES ON CREDIT UNION
TAXATION

In testimony before the House Ways and Means Committee on
November 3, 2005, Chairman Johnson told Committee
Members that America’s credit unions’ tax exemption is vital to
the long-term stability and safety and soundness of the
nation’s credit union system, as well as consumer choice in the
marketplace. Johnson pointed out the Administration’s support
for the exemption and Congressional policy favoring the
continued tax exemption for credit unions as important public
policy. Chairman Johnson urged the Committee to consider
the adverse consequences of taxing credit unions, including
“pressure on credit unions to move away from their not-for-
profit cooperative structure causing a systemic risk throughout
the system.”




                              7
   OIG Semiannual Report                   March 2006


    FEDERALLY INSURED CREDIT UNION
              HIGHLIGHTS
Credit unions submit quarterly call reports (financial and
operational data) to the NCUA. An NCUA staff assessment of
the December 31, 2005, quarterly call reports submitted by all
federally insured credit unions found that key financial
indicators were somewhat stable.


KEY FINANCIAL INDICATORS MIXED FOR 2005

Looking at the December 31, 2005 quarterly statistics for major
balance sheet items and key ratios shows the following for the
nation’s 8,695 federally insured credit unions: assets grew 5.4
percent, or $34 billion; net worth to assets ratio increased from
10.97 to 11.24 percent; the loan to share ratio increased from
74.49 percent to 79.36 percent; the delinquency ratio
increased slightly from .72 to .73 percent; and credit union
return on average assets decreased from .92 percent to .85
percent. The number of problem credit unions (CAMEL rated
4&5) has been increasing for the past five years, from 202
problem credit unions at the end of 2000 to 280 credit unions
at the end of 2005. However, as of March 2006, the number
of problem credit unions dropped to 269.

SAVINGS INCREASED MARGINALLY

Total insured share accounts increased 3.0 percent to $514
billion. Regular shares comprise 33.4 percent of total share
accounts; share certificates comprise 26.4 percent; money
market shares comprise 17.1 percent; share draft accounts
comprise 13.4 percent; and 9.8 percent is in other share
accounts.


                               8
   OIG Semiannual Report                  March 2006


LOANS INCREASED AND INVESTMENTS DECREASED

Loan growth of 10.62 percent resulted in an increase in total
loans by $44.0 billion. Total net loans of $454.9 billion
comprise 67 percent of credit union assets. First mortgage
real estate loans increased 11.4 percent and other real estate
loans increased 18.7 percent. First mortgage real estate loans
are the largest single asset category with $137.1 billion
accounting for 31.5 percent of all loans. Other real estate
loans of $73.5 billion account for 16 percent of all loans. Used
car loans of $86.6 billion were 19 percent of all loans, while
new car loans amounted to $84.0 billion or 18% of total loans.
Note that 70.5 percent of all auto loans are through indirect
lending programs. Credit card loans totaled $21.2 billion or 5
percent of total loans and other unsecured loans totaled $21.2
billion for 5 percent of total loans. The remaining 5 percent of
loans was $22.7 billion in other loans. Included in this last
category are Member Business Loans which increased 33.5
percent in 2005. Total investments decreased 7.3 percent to
$148 billion. Investments with maturities less than one year
account for 53.9 percent of all credit union investments.




                               9
   OIG Semiannual Report                  March 2006


            LEGISLATIVE HIGHLIGHTS
NCUA MODIFIES SHARE INSURANCE COVERAGE

On March 17, 2006, the NCUA Board issued an interim final
rule amending share insurance to clarify coverage and
implement changes required by share insurance reform
Congress enacted in February 2006. While the interim rule
increased share insurance limits to $250,000 for retirement
accounts, it retained the $100,000 insurance limit for all other
types of share accounts. NCUA and the Federal Deposit
Insurance Corporation (FDIC) coordinated their share and
deposit insurance interim rules regarding coverage amounts.
Both agencies will jointly review insurance protection levels
every five years to ensure deposited funds remain fully
protected now and in the future.

NCUA CHAIRMAN JOHNSON TESTIFIES ON REGULATORY
RELIEF

On March 1, 2006, Chairman Johnson testified before the
Senate Banking, Housing and Urban Affairs Committee,
presenting recommendations on regulatory relief for credit
unions.     Reiterating many of the regulatory relief
recommendations prescribed in 2005, Chairman Johnson said
the agency continues to seek a statutory change authorizing
NCUA to implement a risk-based prompt corrective action
(PCA) system for federally insured credit unions.           She
encouraged the Committee to consider changes to member
business lending to improve credit unions’ ability to provide a
source of needed credit to small businesses.




                              10
    OIG Semiannual Report                    March 2006


FEDERAL FINANCIAL REGULATORY AGENCIES FINALIZE
FACT ACT RULES ON MEDICAL INFORMATION

On November 17, 2005, the federal bank, thrift, and credit
union regulatory agencies issued final rules under the Fair
Credit Reporting Act (FCRA) that create exceptions to the
statutory prohibition against obtaining or using medical
information      in     connection   with    credit  eligibility
determinations. The final rules, which are substantially
identical to the interim final rules issued by the agencies in
June 2005, also address the sharing of medically related
information among affiliates. The effective date for these
final rules is April 1, 2006.




                                11
   OIG Semiannual Report                    March 2006



  OFFICE OF THE INSPECTOR GENERAL
The Office of the Inspector General was established at the
NCUA in 1989 under the authority of the Inspector General
Act of 1978, as amended in 1988. The staff consists of the
Inspector General, Counsel to the Inspector General,
Assistant Inspector General for Audits, Director of
Investigations, two Senior Auditors, Senior Information
Technology Auditor, and Office Manager.

The Inspector General reports to, and is under the general
supervision of, the NCUA Board. The Inspector General is
responsible for:

1. Conducting, supervising, and coordinating audits and
investigations of all NCUA programs and operations;

2. Reviewing policies and procedures to ensure efficient
and economic operations as well as preventing and
detecting fraud, waste, and abuse;

3. Reviewing existing and proposed legislation and
regulations to evaluate their impact on the economic and
efficient administration of agency programs; and

4. Keeping the NCUA Board and the Congress apprised of
significant findings and recommendations.




                             12
   OIG Semiannual Report                            March 2006




                  William DeSarno

                         Inspector
                          General




            Sharon
           Regelman

        Office Manager




Sharon Separ          Anne Voegele            Jim Hagen

Counsel to the          Director of         Assistant IG for
     IG               Investigations             Audits




                      Charles                  Dwight          Tammy Rapp,
                  Funderburk, CPA           Engelrup, CPA       CPA, CISA

                      Senior Auditor        Senior Auditor       Senior IT
                                                                  Auditor




                                       13
   OIG Semiannual Report                  March 2006




                   AUDIT ACTIVITY
AUDIT REPORTS ISSUED

OIG-05-10 – October 26, 2005
OIG AUDIT REPORT SURVEY OF SHARE INSURANCE FUND
LOSSES
The National Credit Union Share Insurance Fund (NCUSIF)
reports insurance losses due to failed federally insured credit
unions. Several NCUA offices are involved in recording and
reporting of such losses. The NCUA OIG performed an audit
survey to assess the accuracy and reliability of reported
insurance losses for credit unions that failed in 2004.

We determined that the number of failed credit unions and
their related insurance losses for the year ended December 31,
2004, were reported inconsistently among several offices. As a
result, the number of failures reported in 2004 varied from 18
to 21 federally insured credit unions. The reported insurance
losses for those failures ranged from $12.9 to $14.1 million.
This was caused primarily by not having a clear and consistent
cut-off date for recording and reporting insurance losses. We
obtained insurance loss information for the year ended
December 31, 2004, from the Office of the Chief Financial
Officer (OCFO), the Office of Examination and Insurance (E&I),
the NCUA Asset Management and Assistance Center (AMAC),
and from all five NCUA Regional Offices.

We assessed inherent risks, reviewed insurance loss recording
and reporting procedures, and compared credit union failures
and insurance losses among various reports.         We also
conducted an analysis of the data provided and conducted



                               14
   OIG Semiannual Report                 March 2006


interviews with management to address the discrepancies we
identified.

Regional and AMAC insurance loss data for failed credit unions
are communicated to OCFO and E&I by different means and
for different purposes. The source information for insurance
losses is continually updated for any given reporting period
with no consistently defined period cut-off posting date.
Consequently, the information reported is dependent upon its
run date. Moreover, no reconciliation is performed between
source data and reported data for accuracy and consistency.

We offered two recommendations to clarify and improve
reporting of losses to the Share Insurance Fund.

OIG-05-11 – November 22, 2005
AUDIT MEMORANDUM: EMPLOYEE TAX WITHHOLDINGS
The NCUA OIG performed a proactive review of NCUA
employees’ compliance with personal federal income tax
obligations. We initiated this project as a joint audit and
investigative engagement.    The overall objective was to
identify any NCUA employees who may be delinquent in paying
federal income taxes.

The scope of this engagement was to review and analyze
employee federal tax withholdings in 2004, as reported on
employee Internal Revenue Service (IRS) W-2 forms.

We identified three employees who had $0 federal income tax
withheld in 2004. The employees had gross wages of $72,328,
$26,480 and $3,206, respectively. All three of the employees
claimed to be exempt from federal income tax on their federal
withholding tax forms.     In addition, we identified two
employees who had an effective federal tax withholding rate of
0%. These two employees had gross wages of $99,996 and


                             15
   OIG Semiannual Report                  March 2006




$29,872, respectively. The former--with $99,996 in gross
wages--claimed a married tax status with 16 exemptions.

Overall, our review revealed relatively few employees with no
federal withholding taxes. The few instances of questionable
withholdings were referred to the OIG Director of
Investigations for investigative consideration.

OIG-06-01, 02, 03, & 04 – March 24, 2006
NCUA FINANCIAL STATEMENTS DATED MARCH 24, 2006
Our contracting audit firm, Deloitte & Touche LLP, issued
opinions on the 2005 financial statements of the National
Credit Union Administration Operating Fund, National Credit
Union Share Insurance Fund, the Central Liquidity Facility, and
the Community Development Revolving Loan Fund.              The
auditors found that the financial statements presented fairly
the financial position of the agency’s funds as of December 31,
2005. The firm issued its opinions on March 24, 2005.

THE NCUA OPERATING FUND (OIG-06-01) was established as
a revolving fund managed by the NCUA Board for the purpose
of providing administration and service to the federal credit
union system. The auditors issued an unqualified opinion
on the Operating Fund’s financial statements. The Funds total
assets for 2005 were $64.1 million, up from $55.8 million in
2004.

THE NATIONAL CREDIT UNION SHARE INSURANCE FUND (OIG-
06-02) was established as a revolving fund managed by the
NCUA Board to insure member share deposits in all Federal
credit unions and qualifying state credit unions up to $100,000
per shareholder account. The auditors issued an




                              16
   OIG Semiannual Report                  March 2006




unqualified opinion on the Share Insurance Fund’s financial
statements. The Fund’s total assets for 2005 were $6.7 billion,
up from $6.4 billion in 2004.

THE CENTRAL LIQUIDITY FACILITY (OIG-06-03) was
established as a mixed ownership government corporation
managed by the NCUA Board to improve general financial
stability by meeting the liquidity needs of credit unions. The
auditors issued an unqualified opinion on the Central
Liquidity Facility’s (CLF) financial statements. The CLF’s total
assets for 2005 were $1.5 billion, up from $1.4 billion in 2004.

THE COMMUNITY DEVELOPMENT REVOLVING LOAN FUND’S
(OIG-06-04) purpose is to stimulate economic activities in the
communities served by low-income credit unions. This in turn
will result in increased income, ownership and employment
opportunities for low-wealth residents and other economic
growth. The auditors issued an unqualified opinion on the
Fund’s financial statements. The Community Development
Revolving Loan Fund’s total assets for 2005 were $16.5 million,
up from $15.1 million in 2004.

The financial auditors did not find any matters considered to be
material weaknesses in their review of the Funds’ internal
control structures pertinent to financial reporting. However,
during the performance of the audit, several observations and
recommendations were presented relating to internal control
over financial reporting, and certain other accounting,
administrative, and operating matters.




                              17
   OIG Semiannual Report                  March 2006


AUDITS IN PROGRESS

RISK FOCUSED EXAMS
The NCUA expends significant resources to ensure the safe and
sound operation of Federal credit unions. The major NCUA
effort in this area is the performance of risk focused
examinations (RFE) and supervision. The current RFE program
was initiated in 2002.

The OIG is conducting a national review of certain aspects of
the RFE program. The audit objective is to determine if NCUA
has a process in place to provide assurance that high risk areas
are identified and addressed through the risk focused
examination process

INDIRECT LENDING
Indirect lending is an arrangement where a credit union
contracts with a merchant to originate loans at the point of
sale. The NCUA has designated indirect lending as a high risk
lending activity and issued several guidance documents
regarding indirect lending. This has been a growth area for
lending in the past several years. As of June 30, 2005, 18.7
percent of credit unions have instituted indirect lending
programs. The OIG will determine if NCUA is ensuring that
credit unions are addressing the risks associated with their
indirect lending programs.

SIGNIFICANT AUDIT RECOMMENDATIONS ON WHICH
CORRECTIVE ACTION HAS NOT BEEN COMPLETED
As of March 31, 2006, there were no significant audit
recommendations on reports issued over six months ago that
have not been either fully implemented or are in the process of
implementation.



                              18
   OIG Semiannual Report                   March 2006




            INVESTIGATIVE ACTIVITY
In accordance with professional standards and guidelines
established by the Department of Justice, the OIG performs
investigations of criminal, civil, and administrative wrongdoing
involving agency programs and personnel. Our investigative
program focuses on activities designed to promote economy,
effectiveness, and efficiency, as well as fighting fraud, waste,
and abuse in agency programs. In addition to our efforts to
deter misconduct and promote integrity awareness among
agency employees, we investigate referrals and direct reports
of employee misconduct. Investigations may involve possible
violations of regulations regarding employee responsibilities
and conduct, Federal criminal law, and other statutes and
regulations pertaining to the activities of NCUA employees.

Moreover, we receive complaints from credit union members
and officials that involve NCUA employee program
responsibilities. We examine these complaints to determine
whether there is any indication of NCUA employee misconduct.
If not, we refer the complaint to the appropriate regional office
for response, or close the matter if contact with the regional
office indicates that the complaint has already been
appropriately handled.


OIG HOTLINE CONTACTS
The OIG maintains a toll free hotline to enable employees and
citizens to call with information about waste, fraud, abuse or
mismanagement involving agency programs or operations. We
also receive complaints through an off-site post office box,
from electronic mail, and facsimile messages. All



                               19
   OIG Semiannual Report                  March 2006




information received from any of these sources is referred to as
a hotline contact. The OIG hotline program is handled by our
Office Manager, under the direction of our Director of
Investigations. The majority of hotline contacts are from
consumers seeking help with a problem with a credit union.
These contacts are referred to the appropriate NCUA regional
office for assistance. During this reporting period, we referred
119 consumer complaints to regional offices.

In our last Semiannual Report, we reported on a rash of
Phishing attempts made by individuals using the NCUA name
and logo in an effort to obtain personal and financial
information from credit union members. We also reported on
the efforts of the NCUA’s Chief Information Officer, working in
conjunction with the FBI; Secret Service; Department of
Homeland Security; United States Attorney’s Office and others
in an effort to educate the public and stem the volume of these
attempts. During this reporting period, the number of referrals
reported to us dropped from 600 in the last period to
approximately 400 during this period.


INVESTIGATIONS

During the last reporting period the Office of Investigations
initiated three new investigations and closed three.

FALSE STATEMENTS/ ETHICS ISSUES
One closed investigation involved allegations that an NCUA
examiner had made false statements on his job application
regarding his removal from a previous federal position and




                              20
   OIG Semiannual Report                March 2006




that he had physically threatened a federal manager related
to a personal matter. The OIG investigation determined that
while the employee had been removed from previous federal
employment his removal was ten years prior to his employment
with the NCUA. The employee’s application to the NCUA
required information about the previous five years and
therefore the employee was not obligated to disclose his
removal. The threat allegation was not substantiated.


FALSE CLAIMS/ ETHICS ISSUES
This investigation was referred to the OIG from the Treasury
Department OIG. The employee had been employed by the
Treasury and left to work for the NCUA during the Treasury
OIG’s investigation.   The employee was alleged to have
improperly obtained and retained monies given him for a
directed reassignment to another region. While the
investigation found no evidence of false claims or
misrepresentations, it did determine that the employee had
retained relocation monies to which he was not entitled. The
Treasury Department recouped most of the money through the
withholding of the employee’s last paycheck. The Treasury
Department elected not to pursue a recovery of the remaining
funds.     During this investigation, additional issues were
developed regarding ethics issues related to this employee.
The specific incidents were substantiated, but occurred while
the employee was at the Treasury Department and therefore
no action was taken by the NCUA. The employee was advised
of the investigation and advised of his obligations under
Federal ethics requirements.




                             21
   OIG Semiannual Report                  March 2006




FALSE STATEMENTS
In our last Semiannual Report, we reported on an investigation
involving a career NCUA Examiner who had provided false
information during a routine background investigation, and
when questioned about the alleged false information, reiterated
his original false statement. The OIG investigation developed
numerous instances spanning twenty years of the employee
providing false or misleading information on official documents.
The employee was interviewed by the OIG under Kalkines
Warnings during which he provided additional false and
misleading information. The agency removed the employee and
the employee appealed to the Merit Systems Protection Board
(MSPB). The OIG Director of Investigations and the Inspector
General gave depositions and testified at the MSPB hearing. As
of the date of this report, there has been no final
determination.




                              22
   OIG Semiannual Report                  March 2006




LEGISLATIVE AND REGULATORY REVIEWS

Section 4(a) of the Inspector General Act requires the
Inspector General to review existing and proposed legislation
and regulations relating to the programs and operations of the
NCUA and to make recommendations concerning their impact.
Moreover, we routinely review proposed agency instructions
and other policy guidance, in order to make recommendations
concerning economy and efficiency in the administration of
NCUA programs and operations and the prevention and
detection of fraud, waste and abuse.

During the reporting period, the OIG reviewed 14 items,
including an executive order, proposed and final legislation and
regulations, and several NCUA issuances. The OIG submitted
comments on two agency Instructions.




                              23
       OIG Semiannual Report                              March 2006




 SUMMARY OF STATUTES AND REGULATIONS REVIEWED
      Legislation/E.O.                                         Title
            E.O. 13392                  “Improving Agency Disclosure of Information”
           S. 2285                       “Whistleblower Empowerment, Security, and
                                                Taxpayer Protection Act of 2006”
         P.L. 109-171                 “Deficit Reduction Act of 2005” (Federal Deposit
                                                 Insurance Reform Act of 2005)
         P.L. 109-173            “Deficit Reduction Act of 2005” (Federal Deposit Insurance
                                          Reform Conforming Amendments of 2005)
   Regulations/Rulings                                         Title
      12 CFR part 745              Interim Final Rule: “Share Insurance and Comments”
      12 CFR Part 707                             Final Rule: “Truth in Savings”
   12 CFR Part 717, under                Interagency Notice of Proposed Rulemaking:
    FACT Act section 312           “Procedures to Enhance the Accuracy and Integrity of
                                  Information Furnished to Consumer Reporting Agencies
                                     Under Section 312 of the Fair and Accurate Credit
                                                         Transactions Act”
12 CFR Parts 704, 715, and 741              ANPR: “Supervisory Committee Audits”
       12 CFR Part 742                    Final Rule: “Regulatory Flexibility Program”
   12 CFR Parts 701 and 741        NPR: “Third-Party Servicing of Indirect Vehicle Loans”
      Agency Issuances                                         Title
    NCUA Instruction 1235.1         Affirmative Responsibility to Prevent Discrimination,
          (Revised)                    Reprisal, and Offensive Language and Conduct
                                                         in the Workplace
     Proposed Instruction                 Credit Worthiness Evaluations and Training
                                     Requirements for Government Issued Credit Cards
      NCUA Letter to               Share Insurance Coverage (Deposit Insurance Reform)
   Credit Union 06-CU-05
 NCUA Letter to CU 06-CU-06                  Influenza Pandemic Preparedness




                                          24
     OIG Semiannual Report                                  March 2006




                                         TABLE I

                  INSPECTOR GENERAL ISSUED REPORTS
                       WITH QUESTIONED COSTS
                                                     Number of   Questioned Unsupported
                                                      Reports      Costs       Costs

            For which no management decision
A.          had been made by the start of the
                     reporting period.                  0           $0          $0

B.            Which were issued during the
                     reporting period.                  0            0           0
                    Subtotals (A + B)                   0            0           0

C.           For which management decision
       was made during the reporting period.            0            0           0
     (i)      Dollar value of disallowed costs
                                                        0            0           0
     (ii)     Dollar value of costs not disallowed
                                                        0            0           0
            For which no management decision
D.          has been made by the end of the
                    reporting period.                   0            0           0
            Reports for which no management
E.         decision was made within six months
                       of issuance.                     0            0           0


Questioned costs are those costs the OIG has questioned because of alleged
violations of laws, regulations, contracts, or other agreements; findings which
at the time of the audit are not supported by adequate documentation; or
the expenditure for the intended purpose is unnecessary or unreasonable.
Unsupported costs (included in "Questioned Costs") are those costs the OIG
has questioned because of the lack of adequate documentation at the time of
the audit.




                                             25
    OIG Semiannual Report                                 March 2006




                                   TABLE II

      INSPECTOR GENERAL ISSUED REPORTS WITH
  RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE
                                                           Number of   Dollar
                                                            Reports    Value


            For which no management decision had
   A.
        been made by the start of the reporting period.       0         $0


   B.   Which were issued during the reporting period.        0          0


                         Subtotals (A + B)                    0          0


          For which management decision was made
   C.
                    during the reporting period.              0          0


          (i)          Dollar value of recommendations
                    agreed to by management.                 N/A        N/A


          (ii)         Dollar value of recommendations
                   not agreed to by management.              N/A        N/A


         For which no management decision was made
   D.
                 by the end of the reporting period.          0          0


         For which no management decision was made
   E.
                   within six months of issuance.             0          0

Recommendations that "Funds to be Put to Better Use" are those OIG
recommendations that funds could be used more efficiently if management
took actions to reduce outlays, de-obligate funds from programs/operations,
avoid unnecessary expenditures noted in pre-award reviews of contracts, or
any other specifically identified savings.




                                          26
   OIG Semiannual Report                                March 2006




                              TABLE III

                 SUMMARY OF OIG ACTIVITY
       OCTOBER 1, 2005 THROUGH MARCH 31, 2006

                 PART I – AUDIT REPORTS ISSUED
Report                                                            Date
Number                           Title                           Issued

               OIG Audit Report Survey of Share Insurance
OIG-05-10                                                      10/26/2005
                              Fund Losses


OIG-05-11    Audit Memorandum: Employee Tax Withholdings       11/22/2005


                    NCUA Financial Statement Audit:
OIG-06-01                                                      03/24/2006
                      The NCUA Operating Fund

                    NCUA Financial Statement Audit:
OIG-06-02                                                      03/24/2006
             The National Credit Union Share Insurance Fund
                    NCUA Financial Statement Audit:
OIG-06-03             The Central Liquidity Facility           03/24/2006

                   NCUA Financial Statement Audit:
OIG-06-04                                                      03/24/2006
            The Community Development Revolving Loan Fund


       PART II – AUDITS IN PROGRESS            (as of March 31, 2006)
                                   Risk Focused Exams
                                     Indirect Lending




                                         27
   OIG Semiannual Report                            March 2006




  INDEX OF REPORTING REQUIREMENTS

SECTION                    DATA REQUIRED                           PAGE REF
 4(a)(2)              Review of Legislation and Regulations           23
 5(a)(1)          Significant Problems, Abuses, or Deficiencies       14
                Relating to the administration of programs and
               operations disclosed during the reporting period.
 5(a)(3)         Recommendations with Respect to Significant          14
                        Problems, Abuses, or Deficiencies.
 5(a)(3)           Significant Recommendations Described in           18
                     Previous Semiannual Reports on Which
                  Corrective Action Has Not Been Completed.
 5(a)(4)         Summary of Matters Referred to Prosecution          None
                   Authorities and Prosecutions, Which Have
                                      Resulted.
 5(a)(5)        Summary of Each Report to the Board Detailing        None
                  Cases Where Access to All Records Was Not
                 Provided or Where Information Was Refused.
 5(a)(6)             List of Audit Reports Issued During the          27
                                  Reporting Period.
 5(a)(7)          Summary of Particularly Significant Reports.        14
 5(a)(8)             Statistical Tables on Audit Reports With         25
                                 Questioned Costs.
 5(a)(9)             Statistical Tables on Audit Reports With         26
                    Recommendations That Funds Be Put To
                                     Better Use.
5(a)(10)       Summary of Each Audit Report Issued Before the        None
           Start Of the Reporting Period for Which No Management
             Decision Has Been Made by the End of the Reporting
                                       Period.
5(a)(11)           Description and Explanation of Reasons for        None
                 any Significant Revised Management Decision
                       Made During the Reporting Period.
5(a)(12)       Information Concerning Significant Management         None
                 Decisions With Which the Inspector General is
                                  in Disagreement.




                                     28
OIG Semiannual Report   March 2006




                   29
